CERTIFICATE OF WORD COUNT
NO. 19-395
Christina Alessio,
Petitioner,
v.
United Airlines, Inc.,
Respondent.

STATE OF MASSACHUSETTS)
) SS.:
COUNTY OF NORFOLK
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the REHEARING PETITION OF
Christina Alessio contains 761 words, including the parts of the brief that are required or exempted ■
by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.

NJ
Dan Abramovich

December 19, 2019
SCP Tracking: Alessio-1970 N.. Cleveland-Massillon RoadrCover TAN

: , • : - 1' r

